HHS/OIG-Audit--"Summary Report on Audits of Recharge Centers at 12
Universities, (A-09-92-04020)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Summary Report on Audits of Recharge Centers at 12 Universities," (A-09-92-04020)
January 12, 1994
Complete
Text of Report is available in PDF format (3.36 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report summarizes the results of audits of specialized service
funds (recharge centers) at 12 universities. Recharge centers at universities
operate as in-house enterprises and are used to finance, account for, and report
on the provision of goods and services to other university operating units.
Our audits identified a total of $3.2 million in overcharges to the Federal
Government because universities did not establish or adhere to policies and
procedures for recharge centers and maintain adequate accounting systems and
records. We recommended that universities develop and implement policies consistent
with Office of Management and Budget (OMB) requirements regarding recharge
centers and that the Department's Division of Cost Policy and Oversight work
with OMB to revise guidance to ensure that criteria related to the financial
operation of recharge centers is clear. The Assistant Secretary for Management
and Budget generally concurred with our recommendations.